No. 19-220

Jn tbe S>upreme QCourt of tbe 11'.niteb S>tatef
LEE CHATFIELD, ET AL., APPLICANTS

v.
LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.

MICHIGAN SECRETARY OF STATE'S STATEMENT IN RESPONSE TO
INTERVENORS' JURISDICTIONAL STATEMENT

On April 25, 2019, a three judge panel in the United States District Court for
0

the Eastern District of Michigan, convened pursuant to 28 U.S.C. ยง 2284, issued a
unanimous opinion concluding that Michigan's 2011 district maps for the State
House, State Senate, and federal Congressional districts were the result of an
unconstitutional partisan gerrymander in violation of the First and Fourteenth
Amendments to the United States Constitution. The Legislative and Congressional
Intervenors (comprised of the Michigan State Senate, Michigan Republican
Congressional Delegation, and several individual State legislators) filed notices of
appeal of that decision on April 30, 2019.
This Court thereafter issued its opinion 1n two consolidated partisan
gerrymandering cases, Rucho v. Common Cause and Lamone v. Benisek, 558 U.S._
(2019), on June 27, 2019, holding that "partisan gerrymandering claims present

political questions beyond the reach of the federal courts." (Slip op. at 30.) The Court
accordingly vacated the lower court judgments and remanded the cases "with
instructions to dismiss for lack of jurisdiction." (Id. at 34.)

In their jurisdictional statement, Intervenors seek the same relief granted in
Rucho-namely, that this Court "vacate the judgment and remand the case to the
District Court with instructions to dismiss for lack of jurisdiction." (Juris. State. at
8.) Because the claims in this case-like those in Rucho and Lamone-are partisan
gerrymandering claims, which this Court has now held to be nonjusticiable by tbe
federal courts, the Michigan Secretary of State agrees that the proper course is to
vacate the lower court's judgment and remand the case with instructions to dismiss
for lack of jurisdiction. See Steel Co. v. Citizens for a Better Env't, 523 U.S. 83, 94
(1998) (noting that" 'when uurisdiction] ceases to exist, the only function remaining

to the court is that of announcing the fact and dismissing the cause'").

Cf.

Jurisdictional Statement & Motion to Dismiss, Householder v. Ohio A. Philip

Randolph Institute,

No.

19-70

(requesting

same

disposition in

partisan

gerrymandering case after Rue ho).

CONCLUSION
In light of this Court's holding in Rucho v. Common Cause, the Secretary does
not oppose the relief sought by the Intervenors in their jurisdictional statement.
Respectfully submitted,
Dana Nessel
Mich~gan Attorney Ge:eral

~~~l<~U%,f

r .

Fadwa A. Hamfuoud
Michigan Solicitor General
Counsel of Record
P.O. Box 30212, Lansing, MI 48909
(517) 335-7628,
HammoudFl@michigan.gov

-2-

, JI

. .

Scott R. Eldridge
Erika L. Giroux
Michael J. Hodge
Special Assistant Attorneys General
MILLER, CANFIELD, PADDOCK
AND STONE, P.L.C.
One Michigan Avenue, Suite 900
Lansing, Michigan 48933
(517) 487-2070

B. Eric Restuccia
Deputy Solicitor General
Department of Attorney General
P.O. Box 30212
Lansing, Michigan 48909
restucciae@Michigan.gov
(517) 335-7628

Counsel for Respondent
Michigan Secretary of State

Dated: SEPTEMBER 19, 2019

-3-

